auFtEN HERRERA #AU5012 .
2-)6 -

0`

.• •

.P*b::0::=• BOX.: :9
' t
Cho w•e ill a t;:::11 . 9 3 6,10 .
3

IN PRO SE, PETITIONER

4

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

6
7
8
9
10

RUBEN HERRERA
Plaintiff,

11
.

12
13
14
15'
16

17
18

V.

SECRETARY OF CORRECTIONS, (CDCR)
SECRETARY OF( CDCR) PF1.§-Itet.;;-Vardent:
(A).
Defendant.

CASE NO

MOTION-FOR a7TENSION- OF TIME
TO SUBMIT
Motion for leave to proceed in Forma
pauperis- Rule 39, USCS supreme ct. R.
10. part III Jurisdiction on writ of
CERTIORARI Under JURISDICTION 28 USCS
§636 -(a) (B) (c) (e) and Brady Law penal
C. §1054.1 subd (d) Requires the
disclosure of Material Exculpatory DNA
Evidence, Existing in this case U.S.
penal c. §1054(e) Appealable under section §1237. subd (b) and,USCS Fed, Rules
Evidemee.:R.702,title IV. Parties.DATE: S

/0,4024 TIME 8-00 AM.

19

Hearing Requested.
Petitioner Ruben Herrera #Au5012, proceeding in propria person, hereby appr'20
oaches this Honorable Courti with these declaration: Seeking for 11xtention of time
21
toi ean file a petition for a writ of CERTIORARI, in Affidavit or Declaration
slipportOf Motion for leave to proceed in Forma pauperis, - which has (90) days from
22.
the DATE of the entry ofthe final Judgment in the United States Court of Appeals
oriAlighest State appellate court,or 90 days from the denial of a timely filed.
23
petition for rehearing.
According Supreme court Rule 13.(5). A extehtion of time must be filed with
24
the CLERK at least (10) dayss before-the date the petition isdue, an aplication to
extend the time to file a petition for writ of CERTIORARI.
25
For many reasons, the petitioner could not have had submitted thistindigept
petition for writ of Certiorari, into the (Rule of this court)'time for file it,
26
(90 days) from the DATE of the negation of UNITED STATES COURT OF APPEALS FOR THEM:NTH CIRCUIT, (of CA.) Occurred on (Jun, 17, 2021) 'A petition based on GRANTS and
27
ISSUES over the State presectaion NOT compliying with Brady Law in this case, case
number(Sup. at NO. PA07B949.) Under the Docket Entry NO. 21-55314: D.C. NO.5:21- cv
28
-00329-CJC-JPR. (see this'in. attached page in(Appendix G) an also
V

SEP 21 2071
ME THE CLERK
SUPRE COURT U.S.

1
2
3
4
5

6
8

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

page from the Ninth Circuit - in(Appendix M.) The negation about the Appella
nt's

OBJECTIONS and as a Motion for RECONSIDERATION of (COA) or Certificate
of
Appealability, issues, under 28 U.S.C. §2253 (c) (2) In which, the suppres
sion of
RELIABLE Petitioner's DNA test result Medico Forensid:Report Evidence,
Under
Federal Rules of Evidence:.702, Satisfys the showing of the costitutional
violationes, According at the case of 556 U.S. 449:: Cone V. Bell :: Decembe
r 9, 2008.
in which the United States Supreme Court, remanded, based on Fourteenth
Amendment
which imposes on States certain duties consistent with their sovereing
obligation
to ensure '
- .thatZustice shall be. done" in ALL,CRIMINAL prosecutions. A Petitioner's- Right violated, under Brady Law, and Rules of Federal R. crim. P. 16. and.
USCS Federal RuleOf Evidence 702, and also a Discovery Rule of the court
Vilated
in trial on July of 2014.
Those Issues could be suported by the Newly Discovered Evidence,such
Evidence could not have been discovered, and produced at trial. 315 P.
2d5,11.see
Fed. R. Crim. Proc.33;Fed. R. civ. proc. 60 (b) As the petitioner's Ruben
Herrera
's Medical Forensic Scientific Biological DNA test result Report Evidenc
e, NOT
presented to Jurors as a Material Exculpatory DNA Evidence favorable
to petitioner (see this existing Exculpatory DNA Evidence in attached page in -(Exhibit
(3)
under USCS Federal'jtftles of Evidence 702. Which violates the provisi
on of the Law
and the reciprocal discovery sucheme detaled in penal codes §§§1054-1054,9
and
§1054.1 subd td) Other express statutory provision as mandated by the
U.S.
constitution penal code §1054 (e) Which requires the disclose and. Useal
of a
Discovery & inspection Brady material1 Jurisdiction & venue HN15,to defense
be
used it in any court of Appeals.
According Brady'V. Maryland 373 U.S. 83, 10 L El 2d 215 83, S ct, 1194(19
63
and Daubert V. Merrell Dow Pharmaceuticals Inc. 509 U.S. 579 (1993).
The Supreme
court recognized this problem in Daubert V. Merrell Dow Pharmaceutical
s Inc. (Why
NOT in the petitioner Ruben Herrera's case (No. PA078949) The court here
ruled
testimony regarding " Scientific knoWledge", which must be both consist
ent and
valid to meet" a standard of Evidentiary reliability", but that has not
eliminate wronful conviction, based on faulty forensics as the issues of the
petitioner
denegated by the UNITED STATES DISTRICT COURT CENTRAL DISTRICT OF CALIFOR
NIA on
Mach 16,2021. and UNITED STATES COURT'OF APPEALS FOR THE NINTH CIRCUIT
on jun 17,
2021. (with the excuse that the petitioner hasn't made the necessary
as to the
court's jurisdiction over the petitioner's claims)see-it in (Appendi3t'
J) pages...
For which he is looking for the- opportunity to EXPAND the time to file
this petition of CERTIORARI, to fixt those erros cometed by the State
prosecution
by NOT compliying with Brady Law,By denied the disclose of material
Exculpatory
Evidence favorable to petitioner4EXISTING IN THIS CASE(sup. at No. PA078949„)-_an
d
suppressedt,out Of the presence of the Jurors and Discovery Records of the courts;
as a material Exculpatory DNA Evidence favorable to petitioner Ruben
Herrera;
which violates the constitutional Mandate Discovery Rule of the court-into
o? U.S
and also violates the CONFRONTATION CLAUSE OF THE LAW,aSO:he petitio
ner's Right
undert 14th Amendment,itti be using any material Exculpatory in his defensel which
constitutes on a Brady violation)by no let him use his DNA test result
repor.in
his petitions to appeal his conviction.
According at the Article III. Judicial power. section 2. clause 2,Ju
risdic
tion of Supreme court in all cases affecting, Ambassadors, other public
ministers
and counsuls, and those in which a State shall be party, the Supreme
court shall
have original JURISDICTION IN ALL THE OTHER CASES, before mentioned,
the Supreme
court shall have APPELLATE JURISDICTION, buth as to law and fact, wiht
such
Exceptions, and under such Regulations as the congress shall make.
Based on. these constitutional Rights violated in the case,("noGPA078949)of
-7

1

thee-petitioner RUBEN HERRERA. He would like to REQUES
T this HONARABLE SUPREME
COURT OF JUSTICE; the reconsideration over the reasons, for
which this motion Of
2
CERTIORARI could be submitted lat&in your office,.if
the court Authorize it.
Based on .
3
As a layperson in the law, and an incarcerated inmat
e, petitioner has
limited access to the authorities and materials neces
4
sary to further his legdi
•
proceeding .
The prison law library is not opening as a regulate
time because the
COVID-19. puts a new regulations of time of visit, NO
'assure the opening of it.
which avoided all time the file(d) of this Certiorari
,,because NO legal material
6
could be used in this filing.
(3)1:Unfortunately the petitioner Ruben
ra, an indigent inmate without
' 7
4py family suport to assist:petitioner in this Herre
legal affore, move over due to
petitioner individual Medical capacity envolving petit
ioner's medication Diagnost
8
"MULTIPLE SCLEROSIS" (one of the reasos forwhichth
e petitioner ws putting in
transfertoanother medical FACILITY of V.S.P.) See attac
hed page in '(Appendix H)
9
Because of this Diagnostic,TetItioner is unable to work
a prison job that would
afford the poin that petitioner's detiriorate state
is effecting his ability to
10
fight this case, from octuber of 2020, based on the
COVID-19. which was infecting
him
on september of 2020. from which his near death, provo
11
king in him_Multiple
-"Sclerosis.
12
13
14
15
16
17

- (4) On August27, 2021. Petitioner was trasfered from
C.V.S.P. 19025, •
Wiley's well Rd. Blythe CA.. 92225. to Valley State Priso
n P.O. Box 96, Chowechill,
a, CA. 93610. where the law library is closed the most
time, in the weekens
because the yeards were infected with the COVID-19.*
NO law library to can help
the petitioner to file this CERTIORARI NO even to make
copys of legal documentation, and also,lais persanal propertys were retained
for aweek, because the prison
put all inmate in guarentine.

THEREFORE, for these reasons stated above, petitioner-re
spectfully-request
an enlargement of time in which to file this Certiorari
, by...
Respectfully subtitted at MADERA COUNTY CALIFORNIA,

18.
19

I declare under penalty of perjury under the laws of
the U.S. and State
of California that the foregoing is true and correct
(pursuant to 28 USCA, 1746(2)

20
21

DATE:

bc.3 Aou Birthday:

a_oct

-73

Signature: 4Z,--J
x

22

Name:
23

/21/4,e,i) /1.../.15'4 e,fWV‘

AU5012.

24
25
26
27
28

ORIGINAL

